UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 22 2021
MOLLY C. DWYER, CLERK
US. COURT OF APPEALS

DONNIE ROMONE TWIGGS,

No.

21-70646

Petitioner,
ORDER
v.
CHARLES L. RYAN; ATTORNEY
GENERAL FOR THE STATE OF
ARIZONA,
Respondents.
Before: THOMAS, Chief Judge, TASHIMA and SILVERMAN, Circuit Judges.
Donnie Romone Twiggs has filed a petition for writ of habeas corpus, which
we treat as a 28 U.S.C. § 2254 habeas petition. An application for a writ of habeas
corpus must be made to the district court. See 28 U.S.C. § 2241(b); Fed. R. App.
P. 22(a). If a habeas petition is filed in the court of appeals, “the application must
be transferred to the appropriate district court.” Fed. R. App. P. 22(a); see also 28
U.S.C. §§ 1631, 2241(b). We, however, will not transfer the § 2254 petition to the
district court because Twiggs has not identified the state court judgment that he
seeks to challenge or the grounds for relief.
We decline to consider Twigg’s § 2254 petition and deny as moot any
pending motions.
No further filings will be entertained.

Additional material
from this filing is
available in the
Clerk's Office.

